SARAH M. HARRIS
(202) 434-5599
sharris@wc.com

October 12, 2021
BY HAND DELIVERY AND ELECTRONIC FILING
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Erik Egbert v. Robert Boule, No. 21-147
Dear Mr. Harris:
I am counsel of record for petitioner Erik Egbert in the above-captioned matter, which is
currently before this Court on a petition for a writ of certiorari. In accordance with this Court’s
Rule 15.5, petitioner hereby waives the 14-day waiting period for distribution to the Court of the
petition, respondent’s brief in opposition, and petitioner’s reply brief.
We appreciate your assistance.
Sincerely,

Sarah M. Harris

Cc:

Felicia H. Ellsworth (Counsel for Respondent)

